HHS/OIG, Audit - "Review of Colorado's Undistributable Child Support
Collections for the Period October 1, 1998, Through September 30, 2005,"
(A-07-07-04106)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Colorado's
Undistributable Child Support Collections for the Period October 1, 1998,
Through September 30, 2005," (A-07-07-04106)
November 21, 2007
Complete Text of Report is available in PDF format (714 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine
whether the State agency appropriately recognized and reported program income
for undistributable child support collections and interest earned on child
support collections.  The State agency did not recognize and report program
income for undistributable child support collections because the State agency
did not follow its own policies and procedures.  As a result, for the period
October 1, 1998, through September 30, 2005, the State agency did not recognize
and report program income totaling an estimated $8,336 ($5,502 Federal share).
In addition, two county offices either transferred or held $129,807 of
undistributable child support collections, which the State agency claimed were
not Title IV-D.
We recommended that the State agency (1) report $8,336
($5,502 Federal share) of Title IV-D program income after it transfers these
collections to the States abandoned collections account, or revise its
quarterly Federal financial reports (Form OCSE-34A) to correct these
transactions; (2) work with the Office of Child Support Enforcement (OCSE) to
negotiate the Federal share of the $129,807 in undistributable child support
collections that may be attributable to Title IV-D and report the negotiated
amount (if any) on the Form OCSE-396A; (3) work with OCSE to review
undistributable child support collections for the remaining county offices and
determine whether they have appropriately declared, transferred, and reported
any remaining collections as program income; and (4) strengthen enforcement of,
and training in, policies and procedures to ensure that undistributable child
support collections are recognized and properly reported as program income.
The State agency disagreed with most of our findings and
recommendations.  After reviewing the State agencys comments, we adjusted our
findings and recommendations.